No. 20-18

 

 

In THE
Supreme Court of the United States

ARTHUR GREGORY LANGE,

Petitioner,
v.

STATE OF CALIFORNIA,
Respondent.

On Writ of Certiorari to the
California Court of Appeal, First Appellate District

BRIEF OF THE RUTHERFORD INSTITUTE
AS AMICUS CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,262 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 11, 2020.

 

Colin Casey Hogan
Wilson-Epes Printihg Co., Inc.
